HHS/OIG, Audit - "Review of High-Dollar Payments for Missouri
Medicare Part B Claims Processed by Pinnacle Business Solutions, Inc., for the
Period January 1, 2003, Through December 31, 2003," (A-06-07-00086)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for Missouri Medicare Part B Claims Processed by Pinnacle Business Solutions,
Inc., for the Period January 1, 2003, Through December 31, 2003,"
(A-06-07-00086)
December 28, 2007
Complete Text of Report is available in PDF format (281 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether
Pinnacle Business Solutions, Inc.s (Pinnacle) high-dollar Medicare payments to
Missouri Part B providers were appropriate.  Of the 59 high-dollar payments that
Pinnacle made to providers, 46 were appropriate. However, Pinnacle overpaid
providers $65,506 for the remaining 13 payments.  Providers stated that they had
refunded two of the overpayments, totaling $17,643, prior to our fieldwork;
however, Pinnacle had not received the refund for one claim with an overpayment
totaling $14,440.  Eleven overpayments, totaling $47,863, remained outstanding.  We recommended that Pinnacle recover the $47,863 in overpayments identified
during our audit, process the corrected claim and recover the $14,440
overpayment that the provider stated that it had corrected prior to our audit
but Pinnacle had not received, review for accuracy claims that had a charged
amount equal to the allowed amount, and consider using the results of this audit
in its provider education activities.  Pinnacle agreed with the findings and
recommendations.